               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Unauthorized Overtime Usage in
              Field Operations

                       Audit Report




                                              March 30, 2012

Report Number HR-AR-12-003
                                                                      March 30, 2012

                                           Unauthorized Overtime Usage in Field
                                                                   Operations

                                                     Report Number HR-AR-12-003



IMPACT ON:
The U. S. Postal Service’s labor costs.   either approve or disapprove carrier
                                          overtime requests before carriers leave
WHY THE OIG DID THE AUDIT:                for their routes, and following badge
Given the Postal Service’s financial      control and clock ring procedures to
condition, it is critical to manage       ensure employees are unable to
workhours. Our objective was to assess    perform unauthorized work. Also, have
the Postal Service’s management           supervisors review required TACS
controls and oversight to prevent         reports, provide periodic refresher
unauthorized overtime.                    training to managers and supervisors on
                                          monitoring unauthorized overtime, hold
WHAT THE OIG FOUND:                       managers and supervisors accountable
The Postal Service has established        for not addressing unauthorized
procedures to monitor and control         overtime, and establish and implement
unauthorized overtime. However,           proactive monitoring processes
managers and supervisors did not          including periodic reminders and a
always follow the prescribed              system of accountability to minimize
procedures, as we identified issues       unauthorized overtime
relating to Postal Service (PS) Form
1017-B, Unauthorized Overtime Record;     WHAT MANAGEMENT SAID:
PS Form 3996, Carrier – Auxiliary         Management agreed with the findings
Control; Time and Attendance              and recommendations and plan to
Collection System (TACS) updates;         implement corrective actions by
and controls over time cards. As a        September 30, 2012. Management also
result, we identified 7.5 million         agreed with the monetary impact of
unauthorized overtime workhours in        $717.5 million reported.
fiscal year (FY) 2010 and 10.6 million
in FY 2011, at a combined cost of         AUDITORS’ COMMENTS:
$717.5 million to the Postal Service.     Management’s comments were
                                          responsive and we believe the
WHAT THE OIG RECOMMENDED:                 corrective actions should resolve the
We recommended the chief operating        issues identified in the report.
officer and executive vice president
instruct the vice presidents, Area
Operations, to issue supplemental         Link to review the entire report
guidance reinforcing the importance of
completing PS Forms 1017-B, reviewing
PS Forms 3996, and taking action to
March 30, 2012

MEMORANDUM FOR:            MEGAN J. BRENNAN
                           CHIEF OPERATING OFFICER AND EXECUTIVE VICE
                           PRESIDENT




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Unauthorized Overtime Usage in Field
                           Operations (Report Number HR-AR-12-003)

This report presents the results of our audit of Unauthorized Overtime Usage in Field
Operations (Project Number 11YG042HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.

Attachments

cc: Vice Presidents, Area Operations
    Dean J. Granholm
    Tim O’Reilly
    David E. Williams
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management
Unauthorized Overtime Usage in Field Operations                                                                    HR-AR-12-003



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Procedures to Monitor and Control Unauthorized Overtime Were Not Followed ............ 2

   PS Form 1017-B, Unauthorized Overtime Record ....................................................... 2

   PS Form 3996, Carrier – Auxiliary Control................................................................... 3

   Updating TACS to Reflect Approved Overtime ............................................................ 4

   Control Over Time Cards ............................................................................................. 6

Implementing Best Practices ........................................................................................... 7

Recommendations .......................................................................................................... 8

Management’s Comments .............................................................................................. 9

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 11

   Prior Audit Coverage ................................................................................................. 13

Appendix B: Monetary Impact ....................................................................................... 16

Appendix C: Management’s Comments ........................................................................ 17
Unauthorized Overtime Usage in Field Operations                                                    HR-AR-12-003




Introduction

This report presents the results of our audit of unauthorized overtime usage in field
operations (Project Number 11YG042HR000). Our objective was to assess Postal
Service management controls and oversight to prevent unauthorized overtime.1 This
audit was self-initiated and addresses financial and operational risks. See Appendix A
for additional information about this audit.

The U.S. Postal Service ended fiscal year (FY) 2011 with a net loss of $5.1 billion,2
bringing its 5-year net loss to $25 billion. Also, mail volume in FY 2011 declined another
3 billion pieces to 168 billion, dropping total mail volume to levels not seen since 1992.
As a result, it is critical for the Postal Service to efficiently and effectively manage
employee workhours and ensure employees are not performing unauthorized work.

Postal Service field operations employees worked approximately 1.2 billion and
1.1 billion hours in FYs 2010 and 2011, respectively. Overtime workhours accounted for
approximately 6.6 percent of total workhours in FY 2010 and 7.4 percent in FY 2011,
and many of these overtime hours were not authorized by managers or supervisors.

Under the Fair Labor Standards Act (FLSA), as amended, the time during which an
employee performs work may be compensable working time even if the employer did
not request it. FLSA regulations require management to control what work is performed
and prevent employees from performing unauthorized work.3

Conclusion

The Postal Service has established procedures to assist supervisors with monitoring
and controlling unauthorized overtime; however, at the 12 locations4 we visited during
our audit, managers and supervisors did not always follow the prescribed procedures.
Specifically, they did not always complete and maintain Postal Service (PS) Forms
1017-B, Unauthorized Overtime Record, for employees who incurred unauthorized
overtime; provide carriers with feedback when they submitted PS Form 3996, Carrier –
Auxiliary Control, to request assistance or overtime; update the Time and Attendance
Collection System (TACS) to reflect authorized overtime; and control employees’
access to time cards.

We identified 7.5 million unauthorized overtime workhours in FY 2010 and10.6 million in
FY 2011, at a combined cost of $717.5 million to the Postal Service ($294.4 million in
FY 2010 and $423.1 million in FY 2011). Based on our interviews with managers and

1
  Overtime that an employee works without authorization.
2
  The $5.1 billion loss does not include $5.5 billion in deferred retiree health benefits prefunding.
3
  29 Code of Federal Regulations (CFR) §778.316 and §785.10-13.
4
  Chicago, Northern Virginia, Dulles, Harrisburg, Lehigh Valley, and Santa Clarita Processing and Distribution
Centers (P&DCs); the Alexandria Memorial Annex; the Ft. Dearborn and Wicker Park Stations; and the Allentown,
Van Nuys, and Thousand Oaks Post Offices.
                                                              1
Unauthorized Overtime Usage in Field Operations                                                    HR-AR-12-003



supervisors, we found that some of the unauthorized overtime workhours recorded in
the TACS may have been informally authorized by management. However,
management did not track, and we were unable to segregate, informally authorized
overtime from the unauthorized overtime workhours recorded in TACS. As a result, we
classified the entire amount recorded in TACS as unsupported questioned costs.5

Lastly, we identified controls in the Central Pennsylvania District that should be
considered best practices throughout the Postal Service. These best practices include
active daily monitoring of unauthorized overtime by supervisors and active oversight by
managers and the district TACS office.

Procedures to Monitor and Control Unauthorized Overtime Were Not Followed

PS Form 1017-B, Unauthorized Overtime Record

At the 12 locations we visited, we found that supervisors did not always:

1.   Complete or maintain PS Forms 1017-B to track employees’ unauthorized overtime
     usage.

2.   Record all employees’ unauthorized overtime occurrences.

3.   Hold discussions with employees to determine the causes of unauthorized overtime
     occurrences.

4.   Pursue corrective actions to address repeated unauthorized overtime occurrences,
     when appropriate.

We requested PS Forms 1017-B for 20 employees at each location we visited. The
supervisors at eight locations6 were able to provide 74 of the 240 (31 percent)
requested forms. Also, the forms they provided were not always complete. For example,
supervisors at the            Post Office provided PS Forms 1017-B for only five of the
20 employees. In addition, the total unauthorized overtime recorded on the forms was
13.27 hours, compared to the 7,380.57 hours recorded in TACS. Only two of the five
forms indicated that supervisors held discussions with employees regarding
unauthorized overtime occurrences. At the remaining four locations,7 officials did not
complete the forms as required. Supervisors at the            P&DC prepared the forms
for us after we requested them. See Table 1 for the detailed information regarding
PS Forms 1017-B provided by location.




5
  Costs that the U.S. Postal Service Office of Inspector General (OIG) questions because of missing or incomplete
documentation or failure to follow required procedures.
6
  Dulles and Lehigh Valley P&DCs; the Alexandria Memorial Annex; the Ft. Dearborn and Wicker Park Stations; and
the Allentown, Van Nuys, and Thousand Oaks Post Offices.
7
  Chicago, Northern Virginia, Harrisburg, and Santa Clarita P&DCs.


                                                        2
Unauthorized Overtime Usage in Field Operations                                          HR-AR-12-003




                           Table 1. PS Forms 1017-B Provided by Location
                                                                                  Percentage
                                                  Number of          Number of        of
                                                  PS Forms           PS Forms      PS Forms
                                                   1017-B             1017-B        1017-B
                    Facility                      Requested          Provided      Provided
       1. Northern Virginia P&DC                     20                  0            0%
       2. Dulles P&DC                                20                  6           30%
       3. Alexandria Memorial Annex                  20                  5           25%
       4. Harrisburg P&DC                            20                  0            0%
       5. Lehigh Valley P&DC                         20                  6           30%
       6. Allentown Post Office                      20                 15           75%
       7. Chicago P&DC                               20                  0            0%
       8. Ft. Dearborn Station                       20                  7           35%
       9. Wicker Park Station                        20                 15           75%
       10. Santa Clarita P&DC                        20                  0            0%
       11. Van Nuys Post Office                      20                  5           25%
       12. Thousand Oaks Post Office                 20                 15           75%
       Total                                         240                74           31%
     Source: OIG

Supervisors at offices we visited stated that completing PS Forms 1017-B was not a
priority and mail processing and delivery duties took precedence. In addition, some
supervisors were not knowledgeable of the procedures for monitoring and controlling
unauthorized overtime. For example, several supervisors were not using the
Unauthorized Overtime Reports to monitor unauthorized overtime. Two supervisors8 we
interviewed were not familiar with PS Form 1017-B.

PS Form 1017-B serves as a cumulative record of unauthorized overtime. Managers
and supervisors are required to complete a PS Form 1017-B the first time a non-exempt
employee incurs unauthorized overtime. They are also required to document
subsequent occurrences on the form and take appropriate corrective action to address
repeated occurrences, when appropriate. Because supervisors did not properly
document unauthorized overtime, they cannot effectively manage overtime hours.

PS Form 3996, Carrier – Auxiliary Control

Supervisors at the             and                       did not always provide
carriers with feedback when they submitted PS Forms 3996 to request assistance or
overtime. Carriers assumed their overtime requests had been approved and incurred
the requested overtime. At the                Post Office, supervisors did not require
8
    One certified supervisor at the      P&DC and one 204B supervisor at the     P&DC.


                                                    3
Unauthorized Overtime Usage in Field Operations                               HR-AR-12-003



carriers to update PS Forms 3996 to reflect additional overtime incurred to complete
their routes. In addition, supervisors at the        Post Office only used PS Form
3996 when they were short carriers and needed to split routes and assign additional
work to carriers.

In our interviews with personnel at these locations, we found that delivery management
did not emphasize the use of PS Forms 3996 as a tool to help manage daily operations.
Several supervisors at the sites we visited stated that reviewing PS Forms 3996 was not
a priority. Mail delivery issues such as addressing carrier absenteeism, walking the floor
to assess the workload, and ensuring route coverage for mail delivery, took precedence.
A supervisor at the                   Post Office stated they were not aware of the
requirement to review PS Forms 3996 when carriers returned from their routes to
assess time authorized by the supervisors compared to the time worked by the carriers.
In addition, supervisors at the            Post Office thought they only needed to use
the form when they gave additional work to carriers to cover unmanned routes.

A senior Postal Service official stated that carriers receiving Flats Sequencing System
mail may only spend an hour in the office before leaving for their street duties. This
limits the supervisor's ability to address the carriers’ workload and properly address
PS Forms 3996. Typically in the first hour local management is performing other duties
such as splitting vacant routes, supervising the distribution of non-machinable mail and
reject mail, opening the retail windows, coordinating parcel pick-ups, staffing the box
section, and assuring accountable mail is processed and ready for the carrier's leave
time. These competing tasks often take away from the quality efforts needed to properly
assess and address carrier workload and assignments.

Carriers must complete a PS Form 3996 to request overtime or auxiliary assistance on
their routes for days when they estimate the route will exceed 8 hours because of
workload and volume. Carriers are required to show the reason for requesting
assistance or overtime on the form. In addition, PS Form 3996 has a section for
management to approve or disapprove carriers’ requests. Management must approve
or disapprove carriers’ requests and inform carriers of the decision before they leave for
their routes. Furthermore, supervisors are required to review PS Forms 3996 as they
relate to time authorized and time used after the carriers return from their routes, and
maintain copies in a designated place for use when reviewing carriers’ time cards.
Because supervisors did not review carriers’ requested and used overtime, the Postal
Service may have incurred unnecessary overtime costs.

Updating TACS to Reflect Approved Overtime

At nine of the 12 facilities we visited, supervisors informally granted employees
authorization to work overtime; however, they did not always update TACS to reflect the
approval. Specifically, unauthorized overtime ranged from 15 percent to as much as
98 percent of the total overtime in TACS, for these nine locations. See Table 2.




                                                  4
Unauthorized Overtime Usage in Field Operations                                                    HR-AR-12-003



                   Table 2. Unauthorized Overtime Workhours as a Percentage of
                                    Total Overtime Workhours
                                      FY 2010                                        FY 2011
        Facility      Total      Unauthorized     Unauthorized         Total      Unauthorized   Unauthorized
                     Overtime     Overtime        Overtime as a       Overtime     Overtime      Overtime as
                                                  Percentage of                                  a Percentage
                                                  Total Overtime                                    of Total
                                                                                                   Overtime
      Northern
      Virginia
      P&DC            129,766           33,308                  26%     178,006        51,860            29%
      Dulles
      P&DC            151,126           26,045                  17%     133,337        20,231            15%
      Alexandria
      Memorial
      Annex            25,176           18,049                  72%      21,843        21,337            98%
      Chicago
      P&DC            227,936           74,588                  33%     156,238        32,186            21%
      Ft.
      Dearborn
      Post
      Office           58,369           40,956                  70%      70,741        42,715            60%
      Wicker
      Park Post
      Office           34,852           30,890                  89%      33,424        21,501            64%
      Santa
      Clarita
      P&DC            122,923           80,939                  66%      91,436        61,175            67%
      Van Nuys
      Post
      Office           28,088           17,077                  61%      28,996        12,472            43%
      Thousand
      Oaks Post
      Office           21,247           18,561                  87%      29,700        24,058            81%
     Source: eFlash and TACS

This condition occurred because supervisors did not always coordinate between tours
to confirm that overtime hours were authorized and actually worked. In addition, several
supervisors stated that their workload has increased significantly over recent years and
updating TACS was not a priority. Further, several supervisors did not review the TACS
Overtime Alert and Unauthorized Overtime Reports daily to ensure the accuracy of
timekeeping data, as required. Also, postmasters and installation heads did not hold
supervisors accountable for significant unauthorized overtime usage in their respective
areas.

Supervisors are required to generate and review TACS reports (including the Overtime
Alert and Unauthorized Overtime Reports) daily to ensure the accuracy of timekeeping
data. The postmaster or installation head should monitor supervisors’ use of these
reports.9 If supervisors do not update TACS with the correct information, there is an


9
    Field Finance Training: Timekeeping, Participant’s Guide.


                                                            5
Unauthorized Overtime Usage in Field Operations                                HR-AR-12-003



increased risk that overtime information contained in TACS that is used to plan
operations may not be reliable.

Control Over Time Cards

Management secured time cards at the            P&DC and the             and
Post Offices. However, we found that supervisors at the remaining nine sites did not
control employees’ access to time cards. For example, we identified several employees
at the                              , and             P&DCs who did not keep their
time cards in the racks, as required. They took them home after their tours ended.

Supervisors at several locations10 stated they do not lock the time card racks because
employees have staggered tours and workhours and locking the time card racks would
create operational disruptions. Managers at the            P&DC and the
Station stated that the lockable time card racks were not locked at the time of our visit
because they had been damaged several times and subsequently repaired. The senior
operations manager at the             P&DC stated that the facility was developing a plan
of action for time card control that would address this issue at minimal expense. The
               Station manager submitted a request to the Facilities Service Office to
move the time card rack to a different location and repair the rack door. Management at
the                 P&DC was in the process of installing lockable doors for the time card
racks, but the process was not completed at the time of our visit.

Postal Service policy states that supervisors are responsible for controlling employee
access to time cards. They are required to take all necessary action to restrict
employees’ access to the time cards before their scheduled tour begins and make
certain employees clock-in and out according to their assigned schedules.11 Time cards
should be placed in the designated rack for the assigned work area and must be
secured from unauthorized access when not in active use. Employees should never
retain time cards after clocking in or out, unless given specific authorization from the
supervisor to do so.12

These conditions created opportunities for employees to receive overtime without prior
approval, clock-in for work before their scheduled tour began, and clock-out after their
tour ended. For example, we identified two employees at the            P&DC who
worked at their own discretion. One employee stated he sometimes worked on his
scheduled day off without checking to see whether he was authorized to work overtime.
Another employee stated that she normally worked after her tour ended to complete her
assignment. These employees assumed their actions were acceptable because their
supervisors never addressed the issue with them.




10
                                                                     and the
Post Office.
11
   Handbook F-21, Time and Attendance, Section 133.63.
12
   Handbook F-21, Section 142.24.


                                                         6
Unauthorized Overtime Usage in Field Operations                                 HR-AR-12-003



Implementing Best Practices

Although we identified issues relating to PS Form 1017-B and controls over time cards
in the Central Pennsylvania District, we noted monitoring controls that were worthy of
consideration as best practices throughout the Postal Service. Central Pennsylvania
District management requires supervisors at all plants, stations, branches, and
associate offices in the district to generate an Unauthorized Overtime Report for each
tour daily. Supervisors are required to review this report and approve authorized
overtime in TACS. If the overtime is not authorized, supervisors are required to
document the occurrence on a PS Form 1017-B.

In addition, the district TACS office is proactive in monitoring unauthorized overtime. For
example:

   Every Saturday TACS clerks remind offices to review unauthorized overtime.

   Every Sunday TACS clerks send e-mail notifications or place calls to plants and
    offices that are open and still have unauthorized overtime. They notify the field of the
    number of occurrences and of individual TACS files of employees with unauthorized
    overtime. Closed offices also receive e-mails on Sunday so they can take action first
    thing Monday morning.

   Every Monday:

    o TACS clerks send e-mail notifications or place calls to all sites that have
      unauthorized overtime.

    o Between 1 p.m. and 2 p.m., the manager, Financial Programs Compliance
      (MFPC), generates and reviews the district-wide report for unauthorized
      overtime. The MFPC contacts all sites with unauthorized overtime that have not
      indicated their intent to report the overtime as unauthorized.

    o At 3 p.m., the MFPC once again generates and reviews the district-wide
      unauthorized overtime report. Sites are then notified of unauthorized overtime by
      e-mail with notification going to the plant manager or Postal Operations Office
      manager.

These monitoring and oversight practices contributed to minimal unauthorized overtime
usage in the Central Pennsylvania District. In addition, the district had less than
1 percent of unauthorized overtime as a percentage of total overtime in FYs 2010 and
2011, compared to over 30 percent for the other districts we visited (see Figure 1).




                                                  7
Unauthorized Overtime Usage in Field Operations                                HR-AR-12-003



Figure 1: Unauthorized Overtime as a Percentage of Total Overtime




Source: eFlash and TACS

Recommendations

We recommend the chief operating officer and executive vice president instruct the vice
presidents, Area Operations, to:

1. Issue supplemental guidance to supervisors and managers to emphasize the
   importance of:

      Completing and maintaining Postal Service Forms1017-B, Unauthorized
       Overtime Record, for employees who incur unauthorized overtime.

      Approving and disapproving Postal Service Forms 3996, Carrier Auxiliary
       Control, before carriers leave for their routes and reviewing the forms to assess
       actual time used when they return.

      Following badge control and clock ring procedures to help prevent unauthorized
       overtime.

2. Develop a consolidated report, or revise an existing report, to include the Time and
   Attendance Collection System and Unauthorized Overtime Reports and require
   supervisors to review the consolidated report to ensure the accuracy of the
   timekeeping data and improve monitoring of unauthorized overtime.

3. Provide periodic refresher training for supervisors to emphasize their responsibilities
   for time and attendance, including monitoring unauthorized overtime and using
   Postal Service Form 3996, Carrier Auxiliary Control, for managing delivery
   operations.



                                                  8
Unauthorized Overtime Usage in Field Operations                              HR-AR-12-003



4. Develop and implement performance measures or other management controls to
   hold managers and supervisors accountable for failing to address unauthorized
   overtime.

5. Establish and implement proactive monitoring processes that include periodic
   reminders and a system of accountability, similar to the procedures that have been
   implemented in the Central Pennsylvania District to minimize unauthorized overtime.

Management’s Comments

Management agreed with the findings, recommendations, and the monetary impact of
$717.5 million reported. Regarding recommendations 1 and 3, management stated they
will develop a training webinar by September 30, 2012, specific to the use of PS
Forms 1017-B and 3996, badge control procedures, and authorization of overtime. They
will record the webinar event and use it in the future to ensure that managers exercise
adequate control over employee overtime.

Regarding recommendations 2 and 4, management stated that they will collaborate with
Finance and Payroll to set up thresholds for developing a review process for managers
and/or their delegates to ensure that unauthorized overtime is appropriately applied and
documented. Lastly, in response to recommendation 5, they will collaborate with
Finance and the TAC’s Office to implement the Central Pennsylvania District’s
unauthorized overtime procedures as a best practice. Management expects to
implement corrective actions for recommendations 2, 4, and 5 by September 30, 2012.
See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                  9
Unauthorized Overtime Usage in Field Operations                                                      HR-AR-12-003



                                  Appendix A: Additional Information

Background

The FLSA establishes minimum wage, overtime pay, recordkeeping, and child labor
standards affecting full-time and part-time workers in the private sector and in federal,
state, and local governments. The Wage and Hour Division of the U.S. Department of
Labor administers and enforces the FLSA with respect to private employment; state and
local government employment; and federal employees of the Library of Congress,
Postal Service, Postal Rate Commission,13 and the Tennessee Valley Authority. The
FLSA is enforced by the U.S. Office of Personnel Management for employees of other
Executive Branch agencies and by the U.S. Congress for covered employees of the
Legislative Branch.14

FLSA regulations require management to control what work employees perform and
prevent them from performing unauthorized work during compensable working time if
the employer did not request it.

Postal Service employees in field operations worked approximately 1.2 billion and
1.1 billion hours in FYs 2010 and 2011, respectively. Overtime workhours accounted for
approximately 6.6 percent of total workhours in FY 2010 and 7.4 percent in FY 2011
(see Table 3).

            Table 3. Overtime Workhours as a Percentage of Total Workhours
                                     FY 2010                                            FY 2011
     Area           Overtime           Total          Overtime        Overtime          Total           Overtime
                   Workhours         Workhours       Workhours       Workhours        Workhours        Workhours
                                                        as a                                              as a
                                                     Percentage                                        Percentage
                                                      of Total                                          of Total
                                                     Workhours                                         Workhours
Capital Metro         8,449,260      121,866,425             6.9%      9,266,979      118,584,644             7.8%
Eastern              12,046,696      183,937,145             6.5%     13,047,364      178,873,170             7.3%
Great Lakes          10,390,947      148,784,721             7.0%     11,437,603      144,507,645             7.9%
Northeast            12,262,196      172,865,925             7.1%     14,314,457      170,876,308             8.4%
Pacific               6,648,406      125,129,210             5.3%      7,586,123      122,943,562             6.2%
Southwest            13,556,855      213,690,668             6.3%     14,224,304      208,434,866             6.8%
Western              12,517,998      189,928,858             6.6%     13,252,383      185,111,447             7.2%
TOTAL                75,872,358     1,156,202,952            6.6%     83,129,213     1,129,331,642            7.4%
Source: National eFlash




13
   The Postal Reorganization Act of 1970 created the Postal Regulatory Commission (PRC), originally named the
Postal Rate Commission, to set the rates for different classes of mail by holding hearings on rates proposed by the
Postal Service. The Postal Accountability and Enhancement Act of 2006 made several changes to the PRC including
giving the body its current name.
14
   Handy Reference Guide to the Fair Labor Standards Act, September 2010.


                                                        10
Unauthorized Overtime Usage in Field Operations                                 HR-AR-12-003




Objective, Scope, and Methodology

Our objective was to assess Postal Service management’s controls and oversight to
prevent unauthorized overtime. Our scope included unauthorized overtime incurred for
field operations in FYs 2010 and 2011.

To accomplish our objective, we:

 Reviewed laws and regulations pertaining to unauthorized overtime. In addition, we
  reviewed Postal Service policies and procedures for monitoring and controlling
  unauthorized overtime use.

 Analyzed FY 2010 and 2011 overtime data for all 67 Postal Service district offices
  recorded in TACS and judgmentally selected the Northern Virginia, Chicago, Sierra
  Costal, and Central Pennsylvania districts for fieldwork. We selected the Northern
  Virginia, Chicago, and Sierra Costal districts because they ranked high for
  unauthorized overtime as a percentage of total overtime workhours for FY 2010. We
  selected the Central Pennsylvania District to identify best practices because it ranked
  low.

 Interviewed finance and budget managers at the selected districts to determine how
  they monitor and control unauthorized overtime.

 Judgmentally selected three facilities in each of the four districts for review. We
  selected the 12 facilities because they incurred high amounts of unauthorized
  overtime relative to other facilities in their respective districts.

 Toured each of the 12 facilities included in our audit, observed clock ring and badge
  control procedures, and interviewed managers and supervisors to determine the
  causes of unauthorized overtime and procedures they have in place to monitor and
  control occurrences (see Table 4 for the facilities we visited).




                                                  11
Unauthorized Overtime Usage in Field Operations                                                   HR-AR-12-003




                                          Table 4. Facilities Visited
          Area                 District                     Facility                   City, State
     Capital Metro   Northern Virginia           1. Northern Virginia P&DC       Merrifield, VA
     Capital Metro   Northern Virginia           2. Dulles P&DC                  Dulles, VA
     Capital Metro   Northern Virginia           3. Alexandria Memorial Annex    Alexandria, VA
     Eastern         Central Pennsylvania        4. Harrisburg P&DC              Harrisburg, PA
     Eastern         Central Pennsylvania        5. Lehigh Valley P&DC           Lehigh Valley, PA
     Eastern         Central Pennsylvania        6. Allentown Post Office        Allentown, PA
     Great Lakes     Chicago                     7.Chicago P&DC                  Chicago, IL
     Great Lakes     Chicago                     8. Ft. Dearborn Station         Chicago, IL
     Great Lakes     Chicago                     9. Wicker Park Station          Chicago, IL
     Pacific         Sierra Costal               10. Santa Clarita P&DC          Santa Clarita, CA
     Pacific         Sierra Costal               11. Van Nuys Post Office        Van Nuys, CA
     Pacific         Sierra Costal               12. Thousand Oaks Post Office   Thousand Oaks, CA
    Source: OIG

   Identified 20 employees who incurred unauthorized overtime at each of the
    12 facilities and compared hard copies of their PS Forms 1017-B to unauthorized
    overtime workhours recorded in TACS in FYs 2010 and 2011.

   Interviewed at least five employees who incurred unauthorized overtime at each of
    the 12 facilities to determine why they performed overtime work without prior
    approval from their managers and supervisors, whether their supervisors had held
    discussions with them concerning unauthorized overtime, and whether they had
    been issued corrective or disciplinary actions for incurring repeated unauthorized
    overtime occurrences.

   Determined why the Central Pennsylvania District succeeded in monitoring and
    controlling unauthorized overtime usage and documented best practices.

We conducted this performance audit from July 2011 through rMarch 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on January 30, 2012, and included
their comments where appropriate.

We relied on data obtained from TACS. We did not directly audit TACS, but relied on a
prior OIG audit of TACS that reported that TACS has sufficient controls in place to
ensure automated clock rings entered into the application were accurately accepted and




                                                     12
     Unauthorized Overtime Usage in Field Operations                                                  HR-AR-12-003



     processed. Also, the audit found that the Employee Everything Report15 and related
     interfaces were operating as intended and accurately reported transaction results. The
     scope of the audit did not include a review of manual controls and supervisory
     responsibilities related to clock rings.16

     Prior Audit Coverage

     The OIG identified five prior audits related to our objective that were issued within the
     last several years.

                                              Final
                         Report              Report        Monetary
 Report Title            Number               Date          Impact                    Report Results
Allegations of        HR-AR-11-001           3/31/11            None        The audit found that management
Inaccurate                                                                  controls over time and attendance
Time and                                                                    at the locations we visited did not
Attendance                                                                  adequately ensure that
Records                                                                     employees reported their
                                                                            workhours accurately. In addition,
                                                                            supervisors did not complete the
                                                                            required PS Forms 1017-A or
                                                                            3971. The audit also found
                                                                            questionable deletions of clock
                                                                            rings by supervisors, procedures
                                                                            for documenting employees’
                                                                            out-of schedule changes in TACS
                                                                            not being followed, and
                                                                            supervisors improperly charging
                                                                            safety talks and informational
                                                                            meetings to Operation Code 782,
                                                                            Training. Management agreed
                                                                            with the recommendations.




     15
        The Employee Everything Report provides all of the current information about the employee, including the
     employee master file information and clock ring information.
     16
        Application Control Review of the Time and Attendance Collection System (Report Number IS-AR-08-014, dated
     August 14, 2008).


                                                           13
     Unauthorized Overtime Usage in Field Operations                                       HR-AR-12-003



Overtime            HR-AR-11-003          3/31/11           None       The audit found that the Postal
Usage                                                                  Service paid $2.9 billion in
                                                                       overtime for FY 2010
                                                                       compared to $2.4 billion in
                                                                       FY 2009, representing an
                                                                       increase of 17.2 percent. The
                                                                       report also stated that
                                                                       management did not effectively
                                                                       plan for overtime usage as it
                                                                       exceeded its planned overtime
                                                                       hours by 67.8 percent in
                                                                       FY 2010. Management agreed
                                                                       with our findings and
                                                                       recommendations.
Function 4          MS-AR-10-002          4/26/10           $79.6     The audit found that management
Overtime                                                    million   should strengthen time and
Workhours                                                             attendance procedures to reduce
                                                                      Function 4 unauthorized overtime
                                                                      costs. In addition, the report
                                                                      stated that preventing employees
                                                                      from clocking in before and
                                                                      clocking out after their assigned
                                                                      workhours is more cost efficient
                                                                      than detecting unauthorized
                                                                      workhours after they occur.
                                                                      Management disagreed with the
                                                                      finding and recommendation to
                                                                      implement an automated solution
                                                                      to prevent employees from
                                                                      clocking in before and clocking
                                                                      out after their schedules without
                                                                      approval.
City Letter         DR-AR-08-013          9/30/08      $19 million    The audit found that some city
Carrier                                                               letter carriers clocked in before
Operations                                                            their scheduled tour of duty
Office Time                                                           resulting in significant
Processes                                                             unauthorized overtime workhours.
                                                                      Without more effective
                                                                      supervisory controls, the Postal
                                                                      Service may lose an opportunity
                                                                      to reduce city letter carrier
                                                                      workhours. Management agreed
                                                                      with the findings and
                                                                      recommendations.




                                                       14
     Unauthorized Overtime Usage in Field Operations                                     HR-AR-12-003



Application          IS-AR-08-014         8/14/08           None   The audit found that TACS has
Control Review                                                     sufficient controls in place to
of the Time and                                                    ensure automated clock rings
Attendance                                                         entered into the application were
Collection                                                         accurately accepted and
System                                                             processed. Also, the report stated
                                                                   that related interface were
                                                                   operating as intended and
                                                                   accurately reported transaction
                                                                   results. The scope of the audit did
                                                                   not include a review of manual
                                                                   controls and supervisory
                                                                   responsibilities related to clock
                                                                   rings. Management agreed with
                                                                   the recommendations.




                                                       15
Unauthorized Overtime Usage in Field Operations                                                   HR-AR-12-003



                                    Appendix B: Monetary Impact

                                       FY 2010 Monetary Impact
                                                                     Average               Unsupported
                                Source of               Number of     Labor                Questioned
                                                                  17
          Finding              Workhours               Workhours      Rate18                  Costs19
     Procedures to           Unauthorized                 6,953,679 $38.2353                $265,875,995
     Monitor and             Overtime
     Control                 Unauthorized                     561,983 $50.7963                 28,546,650
     Unauthorized            Penalty Overtime
     Overtime Were
     Not Followed                        Total   7,515,662        -                         $294,422,646
                                    FY 2011 Monetary Impact
     Procedures to           Unauthorized        9,634,548 $38.9319                         $375,091,272
     Monitor and             Overtime
     Control                 Unauthorized          928,904 $51.6307                            47,959,958
     Unauthorized            Penalty Overtime
     Overtime Were
     Not Followed                             Total         10,563,452                -     $423,051,229

                                    Grand Total             18,079,114                -     $717,473,875

To determine the monetary impact, we obtained FYs 2010 and 2011 unauthorized
overtime and unauthorized penalty overtime workhours from TACS for all 67 districts.
We calculated unsupported questioned costs by multiplying the total unauthorized
overtime workhours by the average bargaining unit overtime hourly rate and the
unauthorized penalty overtime workhours by the average bargaining unit penalty
overtime hourly rate, and combined the sums for each fiscal year.

We identified 7,515,662 unauthorized overtime workhours in FY 2010 and 10,563,452 in
FY 2011, at a combined cost of $717,473,875 to the Postal Service ($294,422,646 in
FY 2010 and $423,051,229 in FY 2011).




17
   TACS.
18
   National Payroll Hourly Summary Reports dated September 24, 2010, and September 23, 2011.
19
   Unsupported questioned costs are costs that the OIG questions because of missing or incomplete documentation
or failure to follow required procedures. Computational differences are due to rounding.


                                                       16
Unauthorized Overtime Usage in Field Operations                HR-AR-12-003



                           Appendix C: Management’s Comments




                                                  17
Unauthorized Overtime Usage in Field Operations        HR-AR-12-003




                                                  18
Unauthorized Overtime Usage in Field Operations        HR-AR-12-003




                                                  19
